<html>
<title> - CRISIS IN THE CENTRAL AFRICAN REPUBLIC</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                 CRISIS IN THE CENTRAL AFRICAN REPUBLIC

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2013

                               __________

                           Serial No. 113-118

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-638 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001
















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert P. Jackson, Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department of State.     4
The Most Reverend Nestor-Desire Nongo-Aziagbia, Roman Catholic 
  Bishop of Bossangoa, Central African Republic..................    20
Mr. Mike Jobbins, senior programme manager, Africa, Search for 
  Common Ground..................................................    28
Mr. Philippe Bolopion, United Nations director, Human Rights 
  Watch..........................................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert P. Jackson: Prepared statement..............     7
The Most Reverend Nestor-Desire Nongo-Aziagbia: Prepared 
  statement......................................................    23
Mr. Mike Jobbins: Prepared statement.............................    31
Mr. Philippe Bolopion: Prepared statement........................    40

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: The Central African Republic (CAR) fact sheet 
  from the United States Commission on International Religious 
  Freedom........................................................    68
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Letter to the Honorable John F. Kerry, Secretary of 
  State..........................................................    73

 
                 CRISIS IN THE CENTRAL AFRICAN REPUBLIC

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
morning to everyone.
    Today's hearing is not being called an emergency hearing, 
but it could very well be, because since we first decided to 
hold a hearing to spotlight the human rights situation in the 
Central African Republic, the situation has deteriorated even 
further, so that today the country is on the verge of a 
humanitarian catastrophe.
    Coups and dictatorships have characterized the Central 
African Republic since its independence in 1960, but the 
current crisis is far more dangerous than what has come before.
    Consider this, in a country of approximately 5 million 
people, roughly 1.1 million citizens face serious food 
insecurity. Some 460,000 CAR nationals are displaced, including 
64,000 who have fled to neighboring countries as refugees and 
nearly 400,000 who are internally displaced.
    This is because there has been a complete breakdown of law 
and order in the country following the ouster of President 
Francois Bozize in March of this year. After riding to power on 
the back of an insurrection known as Seleka, the current 
dictator, Michel Djotodia, has found it difficult to disengage.
    Seleka, originally a political alliance, has transformed 
itself into a militia of about 25,000 men, up to 90 percent of 
which come from Chad and Sudan, and, therefore, constitute in 
the eyes of many, a foreign invasion force. They do not speak 
the local language and are Muslim in a nation that is roughly 
80 percent Christian.
    They have targeted churches for destruction and stirred up 
sectarian hatreds where none had existed previously. Indeed, 
the Sudanese contingent in particular are said to be members of 
the notorious Janjaweed, who have spread slavery and 
destruction into the Darfur region of Sudan and now are doing 
the same in the Central African Republic.
    And if that is not bad enough, elsewhere the Lord's 
Resistance Army, or the LRA, under the psychotic leader Joseph 
Kony, is also loose in the Central African Republic. Both the 
LRA and Seleka are said to kidnap children to serve as 
soldiers, and UNICEF estimates that there are now as many as 
3,500 child soldiers affiliated with armed groups in the 
country.
    Djotodia has formally disbanded Seleka, but Seleka 
continues to wreak destruction in the countryside, and they 
have seized mines and other resources in the country. Even in 
Bangui, the situation is chaotic.
    One of our witnesses, Mike Jobbins, has related how ``there 
have been nearly a dozen successful or attempted carjackings of 
humanitarian vehicles over the past 2 weeks and at least three 
aid workers have lost their lives since the crisis began.''
    In response the victims have begun to form self-defense 
units referred to as anti-balaka or anti-machete gangs, which 
have begun to commit retaliatory outrages of their own. Rather 
than confront Seleka rebels who are responsible for starting 
the cycle of violence, they often target Muslim citizens who 
they deemed soft targets. Thus, the violence begets more 
violence.
    The situation is so bad that just this past week John Ging, 
the director of the U.N. Office for Coordination of 
Humanitarian Affairs warned, ``We are very, very concerned that 
the seeds of a genocide are being sown.'' All of this is 
happening in a state which, by any definition, is 
dysfunctional.
    In the words of the Prime Minister, who is the closest 
thing to a legitimate figure in the Government of the Central 
African Republic, and whom my staff and I met with this summer 
when he visited Washington, the Central African Republic is 
``anarchy, a non-state.'' This descent into chaos has 
compounded the misery of the people of the Central African 
Republic, who have suffered greatly and lagged substantially in 
terms of development. Prior to this year, the Central African 
Republic ranked 180 of 186 countries per the U.N. Human 
Development Index.
    One area where the Central African Republic did lead 
bespeaks an irony. National Geographic ranks the Central 
African Republic as the nation least affected by light 
pollution. This, of course, is indicative of its low level of 
development, and the neglect and affirmative harm which 
generations of political leaders have subjected the country and 
its people.
    Amid this darkness, however, there are some bright spots. 
It is the leadership of the churches and the faith-based 
organizations, as well as traditional Muslim leaders, long 
resident in Central African Republic, who have sought to defuse 
communal tensions. These indigenous Muslim leaders who speak 
for peace need to be recognized and distinguished from foreign 
fighters from countries such as Sudan--the same Janjaweed, 
again, who harrowed Darfur--who kill and sow destruction in the 
name of jihad.
    We will have the opportunity to hear from one such 
courageous faith leader, Bishop Nongo. I had the privilege of 
hosting Bishop Nongo in my office when he came to visit 
Washington this past summer, and I was moved nearly to tears as 
he described the suffering of the people of his country. It is 
leaders such as Bishop Nongo who provide assistance to all, 
regardless of their affiliation, and who strive for peace, who 
provide the greatest hope for the Central African Republic.
    I would like to now turn to the ranking member and my 
friend, Ms. Bass.
    Ms. Bass. As always, thank you, Mr. Chairman, for your 
leadership on this issue and today's hearing.
    Deputy Assistant Secretary Jackson and today's other 
witnesses, thank you for coming before this committee and 
providing testimony, and I would like to officially welcome 
you. I believe this is your first time giving testimony before 
our committee.
    The crisis in the Central African Republic is deeply 
concerning, and I hope today's proceedings will offer some 
clarity on what can be done by the Congress to ensure greater 
peace and stability in Central Africa and the Central African 
Republic.
    Today we turn our attention to another crisis, this time in 
the Central African Republic, at the very center of Africa. CAR 
is the size of Texas with a population equivalent to that of 
South Carolina. The irony of a country like the Central African 
Republic is that it is mineral-rich, diamonds, gold, and other 
deposits. Despite such natural wealth, that wealth does not 
extend to the people.
    CAR has a per capita GDP of $454, a literacy rate of just 
over 50 percent, and the country's life expectancy stands 
roughly at 50 years. In comparison, the U.S. had the same rate 
over 100 years ago in the early part of the 20th century.
    The World Food Programme reports that more than \1/2\ 
million people are currently at risk of hunger. A recent U.N. 
press release noted that in the CAR 1.6 million people are in 
dire need of assistance, including food, protection, health 
care, water, sanitation, and shelter.
    In October, before the U.N. Security Council, the Central 
African Republic's Ambassador to the U.N. referred to his 
country as a failed state, and the U.N. Envoy to the CAR warned 
that the country runs the risk of descending into anarchy and 
chaos. Today's hearing is about a country on the brink of 
collapse, a fragile state by all accounts. While debate may go 
on as to the Central African Republic's failed state status, 
the fact that we are here discussing this situation requires 
all of us to find better strategies and better solutions.
    In early October, I had the opportunity to meet with the 
Central African Republic's Prime Minister. He was unequivocal 
in seeking support for his nation. I hope that today's hearing 
helps clarify the role the U.S. and other nations can play 
toward saving lives, renewing peace, and returning stability to 
the Central African Republic.
    I want to conclude by saying the African Union is advancing 
efforts to strengthen peacekeeping efforts. I am eager to hear 
what role the U.S. sees as these efforts move forward. I am 
also eager to hear the status of Seleka forces and what can be 
done to end Muslim Christian violence.
    I am keenly aware that the humanitarian crisis has the 
potential to worsen. If the Republic continues its downward 
spiral, what impact will all of this have on U.S. 
counterterrorism efforts, particularly as we deal with the 
AQIM, the Lord's Resistance Army, and other rogue groups?
    Thank you, and I look forward to your testimony.
    Mr. Smith. Thank you very much.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and Ranking Member 
Bass for holding today's hearing on this very important issue. 
The relationship between the United States and Africa has been, 
and continues to be, a priority in U.S. foreign policy. The 
Central African Republic has had serious obstacles to achieving 
democracy and stability, and like many of my colleagues I am 
increasingly concerned about the impact of such instability and 
insecurity on the region.
    Along with strategic considerations, we also must 
contemplate the humanitarian conditions within the Central 
African Republic. The United States has a duty to honor the 
founding principles of our country and to encourage 
opportunity, prosperity, and the hopes of an upward social 
mobility. With such rampant food insecurity and internal 
displacement in the Central African Republic, the workforce 
cannot truly flourish and citizens will not be able to achieve 
an adequate standard of living.
    There are several questions that must be addressed today 
regarding the issues that the Central African Republic 
continues to face, especially its economic and regional 
stability, and the history of U.S. assistance in addressing 
these concerns.
    I thank Deputy Assistant Secretary Jackson for being here 
today and look forward to his testimony.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much.
    I would like to now introduce our first distinguished 
witness, the Ambassador Robert Jackson, who is currently the 
Principal Deputy Assistant Secretary, Bureau of African 
Affairs. Ambassador Jackson previously served as our Ambassador 
to Cameroon and as the Deputy Chief of Mission and Charge 
d'Affaires at U.S. Embassies in Morocco and Senegal, and has 
also worked in Burundi, Zimbabwe, Portugal, and Canada.
    Within the State Department, he has worked in commercial 
and consular sections and has done officer training. He also 
did oversight work in the Office for the Promotion of Democracy 
and Human Rights after 9/11.
    Mr. Ambassador, the floor is yours.

STATEMENT OF THE HONORABLE ROBERT P. JACKSON, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Jackson. Thank you very much, Mr. Chairman, 
Ranking Member Bass, and Congressman Cicilline. This is an 
opportunity for the State Department to offer its views on this 
very important subject.
    Seleka, a loose coalition of four rebel groups under the 
command of the Michel Djotodia, began their violent trek from 
northeastern Central African Republic (CAR) toward the capital 
city of Bangui in late 2012. The overthrow of then-President 
Francois Bozize on March 24 by Seleka forces only exacerbated 
the crisis. I had been following that crisis from neighboring 
Cameroon. And after Bozize fled the country, we saw Djotodia 
declare himself President, suspend the constitution, and 
dissolve the National Assembly, thus leading the country into 
greater turmoil.
    We are deeply concerned by the extreme levels of 
lawlessness and violence that continue to plague the country. 
The United States publicly condemned the Seleka rebellion from 
the very beginning. Furthermore, the United States Government 
suspended, as a matter of policy, direct assistance to the 
Central African Republic central government, but allowed for 
special funding carveouts that permit NGO-sponsored programs 
operating in the country focused on humanitarian assistance, 
civilian protection, health, and antitrafficking in persons 
activities, all of which focus on vulnerable populations 
susceptible to violence and instability.
    The conflict in the CAR has internally displaced nearly 
400,000 people and forced approximately 68,000 new refugees 
into the Democratic Republic of the Congo, the Republic of the 
Congo, Cameroon, and Chad. In Fiscal Year 2013, the U.S. 
Government provided more than $24 million in humanitarian 
assistance to CAR in support of programs providing food and 
non-food items, health services, access to clean water, and 
more.
    The State Department also provided $6.2 million to UNHCR 
and UNICEF to respond to the needs of new refugees in these 
neighboring countries.
    Mr. Chairman, members of the subcommittee, establishing 
civilian protection in Bangui and the countryside is a 
prerequisite for a more substantial international presence in 
assisting the CAR to address the ongoing crisis. In order to 
help restore peace and assure civilian protection throughout 
the country, we strongly supported the adoption of U.N. 
Security Council Resolution 2121, which expressed the Council's 
support of the African Union-led international support mission 
in the Central African Republic known as MISCA.
    We believe that MISCA is the best mechanism for quickly 
addressing the ongoing violence in the CAR, facilitating the 
provision of humanitarian assistance, and establishing the 
environment necessary for an eventual political transition to 
take place.
    The Department of State now is in the process of notifying 
the Congress of our intention to provide logistical support, 
non-lethal equipment, training, and planning assistance to 
MISCA. We are also urging countries in the region, as well as 
the broader international community, to assist in facilitating 
its rapid implementation.
    We are concerned that the violence between the largely 
Muslim Seleka rebels and the self-defense militias that have 
formed in majority Christian communities in reaction to 
Seleka's abuses is now taking on an increasingly religious 
cast. For example, fighting in Bossangoa and Bangassou, between 
Seleka and local defense militias in September and October sets 
the stage for what could in a worst-case scenario lead to 
atrocities on an even larger scale than we have witnessed to 
date.
    On November 8, as part of our continued commitment to 
working with the international community to find an immediate 
solution aimed at ending the violence and creating stability in 
the CAR, the State Department's senior advisor for CAR traveled 
to Bangui for the first time to participate in the third 
meeting of the International Contact Group.
    This frank and honest discussion resulted in the Bangui 
Declaration, which calls for the international community to 
strengthen the AU-led MISCA military mission and to lend 
support for the CAR's transitional road map. While in Bangui, 
the United States led the discussion calling on President 
Djotodia to reverse his plan to enlist former Seleka rebels 
into the CAR military.
    We strongly oppose the trend of past authoritarian leaders 
in CAR using the military as an instrument of personal power 
instead of national defense. We have utilized this and other 
diplomatic engagements, including lengthy discussions with the 
Government of France in Paris last week, as a means to urge 
regional and international partners to provide troops, 
additional funding, and other support necessary for MISCA to 
deploy quickly into CAR.
    We also use these opportunities to press our international 
partners to join us in looking for ways to bolster the 
legitimate portions of the transitional government, including 
Prime Minister Tiangaye, so that governance can begin to be 
restored to the country and we can begin focusing on holding 
elections by February 2015, as called for in the political 
agreements that brought an end to the fighting earlier this 
year.
    We hope, through these engagements, that we will have an 
increased commitment by the international community to be more 
engaged on the serious issues facing the CAR.
    Chairman Smith, Ranking Member Bass, Congressman, let me 
assure you that we remain substantively engaged and will 
continue to address the ongoing crisis in the CAR. There is no 
doubt that the international community must act quickly. We are 
committed to working with our international partners to bring 
about peace and security for the people of the Central African 
Republic.
    We also look forward to keeping you and the committee 
informed of our efforts in this regard. I would be glad to 
answer any questions you may have.
    [The prepared statement of Mr. Jackson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Mr. Ambassador, thank you very much for your 
testimony. And, without objection, your full statement will be 
made a part of the record. Can you clarify whether U.S. troops 
are operating inside the Central African Republic as has been 
reported? Are they helping to support efforts against the 
Lord's Resistance Army? What is their role?
    Ambassador Jackson. Thank you, Mr. Chairman. Indeed, we do 
have U.S. troops in the Central African Republic acting as 
advisors, and their only mission is to combat the Lord's 
Resistance Army and to support the AU, primarily Ugandan 
mission, to counter the Lord's Resistance Army and encourage 
defections and, of course, find Joseph Kony.
    Mr. Smith. You stated in your testimony, orally as well as 
on page 5 of your written testimony, that the U.S. has led 
discussions calling for President Djotodia to reverse his plan 
to integrate 3,500 former Seleka rebels into CAR security 
forces and another 1,500. What has been the outcome of those 
interventions? And could you, for the committee, elaborate on 
the composition of Seleka?
    Ambassador Jackson. Mr. Chairman, allow me to begin with 
the latter part of your question. We believe that Seleka 
originally numbered around 4,000 people. It has grown over the 
months since the rebellion began to about 20,000. While we have 
no exact count, there is anecdotal evidence to suggest that 
perhaps three-quarters of that 20,000 originate in Chad or 
Sudan.
    As for the integration of those Seleka forces into the 
police and the Army, we have made it very clear that we cannot 
support President Djotodia's efforts to do that. The Bangui 
Declaration and efforts by our partners in the International 
Contact Group we hope will lead him to rethink that entire 
approach.
    There is no question that the CAR needs an effective Army 
and an effective police force, but it needs to be 
representative of all the people and of all religious groups in 
the country.
    Mr. Smith. With regards to MISCA, you point out that you 
believe that MISCA is the best mechanism for quickly addressing 
the ongoing violence in the CAR. MISCA is, what, about 2,500 
troops? How robust are their rules of engagement? One of my 
biggest takeaways from multiple trips to Africa, and elsewhere, 
including the former Yugoslavia during the worst days of the 
bombings and the killings in Sarajevo, was a lack of a mandate 
to truly be peacemakers rather than to be garrisoned.
    I saw the same thing in the DR Congo on trips years ago, 
and my first trip to Darfur saw the same thing as well--rules 
of engagement that were far less robust. What are their rules 
of engagement?
    Ambassador Jackson. Thank you, Mr. Chairman. It is worth 
nothing that the U.N. mission is actually called a peace-
building mission, precisely because we need rules of engagement 
that are very clear that permit peace to be restored. This is 
not a peacekeeping mission, unfortunately. We hope eventually 
it will transition to a peacekeeping mission under AU's 
auspices.
    But the key is that right now the 2,500 troops from the 
Economic Community of Central African States that are on the 
ground, plus another 1,500 we expect from those countries as 
well as Burundi and potentially other AU members, will be able 
to restore peace, and they are currently engaged in fighting 
and cleanup operations and any operation necessary to restore 
peace. So they have robust rules of engagement, and we think 
appropriate rules of engagement for the situation.
    Mr. Smith. Are there any funding or resource issues, you 
know, lack of materiel, money, to buy bullets for MISCA, for 
example, and weapons. Are there deficiencies there?
    Ambassador Jackson. Mr. Chairman, we plan to request the 
Congress' approval to provide about $40 million for MISCA's 
operations.
    Mr. Smith. When will that be?
    Ambassador Jackson. Within the next few weeks. We are 
actively working on using several different pots of money in 
order to have sufficient funds for this worthy mission. The 
assistance that we would provide would be non-lethal and would 
be complemented by assistance from France and the European 
Union in particular, that would include military supplies to 
ensure that MISCA can fulfill its peacebuilding mission.
    Mr. Smith. Are there any inhibitions with regards to 
training that need to be overcome vis-a-vis the Leahy 
amendment? I mean, I strongly support the Leahy amendment, but 
as we have recently seen, at least I have seen recently in 
Nigeria, there are capacities and capabilities that are not 
being used because the Leahy amendment, out of an abundance of 
caution, people are less likely to want to train and vet 
individual soldiers who then could be deployed who have a human 
rights mindset.
    Ambassador Jackson. Mr. Chairman, I am not aware of any 
impediments to deploying the soldiers that we plan to train and 
see in MISCA. That said, we will of course comply with the 
Leahy vetting requirements to ensure that human rights abusers 
are not part of the mission. Given the makeup of Seleka and the 
whole history of this rebellion and the gross human rights 
violations that have taken place in CAR, adding people with a 
poor human rights record would only aggravate the situation.
    Mr. Smith. Let me ask you, if I could, on Friday, November 
1, United Nations Special Advisor on the Prevention of 
Genocide, Mr. Adama Dieng, asserted that violence in the 
country may already constitute crimes against humanity and war 
crimes. Civilians face imminent threats of atrocities, and he 
would not rule out the possibility of genocide. Has this risen 
to the point of genocide?
    Ambassador Jackson. Mr. Chairman, I do not believe we are 
in a genocidal situation. We are in a pre-genocidal situation, 
as the U.N. Envoy and other experts have said. And that is why 
we think it is so important to move ahead with assuring that 
MISCA is in place next month, so that we can stop the descent 
into worse and worse violence, and particularly into communal 
violence.
    Mr. Smith. Is the administration making any plans for a 
justice mechanism, the likes of which we saw in Sierra Leone, 
with a tribunal or some way to significantly hold perpetrators 
of violence to account?
    Ambassador Jackson. We have begun to discuss with the U.N. 
and partners the possibility of sanctions. We do not currently 
have enough information to apply sanctions to any individuals. 
We are in an information-gathering mode at this time, but it is 
something that is under consideration.
    Mr. Smith. Finally, just let me ask you, as you know, 
Bishop Nongo is here to provide testimony, among others, in our 
second panel. The church is playing--and, again, having just 
been in Jos, Nigeria, different country, but situations that 
may parallel at least what is going on here, and that's the 
Boko Haram and its killing spree that they have unleashed, one 
of the biggest takeaways that I have had time and again and had 
it most recently with Nigeria was just how effective, how 
proactive, and how comprehensive the work is that the churches 
provide, and that they do reach out in a very significant way 
to the Muslims.
    I mean, the highest ranking Islam Muslim cleric in Jos 
couldn't have been closer to the Catholic Bishop in Jos working 
together to try to mitigate the violence. And Bishop Nongo will 
speak shortly about the efforts the church is making to try to 
provide safe haven shelter, humanitarian assistance, but also 
to try to bridge the gap between those who commit violence and 
to put as much of a tourniquet on this terrible blood-letting.
    What is your view of the church's role? And how would you 
characterize the Catholic Church and the other churches' role 
in CAR?
    Ambassador Jackson. The church and other religious leaders 
have played a fundamental role in attempting to address this 
cycle of violence. The Archbishop of Bangui, a prominent 
Protestant pastor, and one of the leading imams from Bangui, 
have been working very actively and very effectively together 
to sensitive their congregants to the dangers of intercommunal 
violence. And I believe that the Bishop will certainly amplify 
on that, but we view their role as pivotal and potentially of 
great relevance in resolving the tensions that have developed 
over the last year.
    Mr. Smith. And are we backing that up with financial 
support to them, especially as it relates to the work that they 
do on behalf of victims? Again, another takeaway, as I met with 
the Bishop in Jos, I was shocked and disappointed that under 
PEPFAR he had received money for AIDS orphans, and as we were 
talking about the Boko Haram and the violence and all the 
things that he was doing, he said he was bewildered as to why 
his funding had been shut off for these AIDS orphans.
    When I got back to the Embassy, I learned to my shock that 
only 9 percent of our money, health money and PEPFAR money, was 
going to faith-based organizations on a continent where faith-
based is the go-to entity. And I am wondering if we are 
assisting tangibly the Bishop and the others, the Protestants, 
the other faith-based organizations in their humanitarian 
endeavors.
    Ambassador Jackson. Mr. Chairman, I am going to have to get 
back to you on that. Of the $25 million that we provided in 
humanitarian assistance last fiscal year, I do not know how 
much went to faith-based organizations.
    Mr. Smith. Could you get back specifically with that? And I 
would hope--and I don't know if it parallels in CAR, but I 
would hope--I mean, I was disappointed and asked them to try to 
do a better job certainly in Nigeria, because the story from 
the Bishop in Jos was frightening. He goes, ``What do I do with 
these hundreds of children?'' And, again, these are AIDS 
orphans who all of a sudden he is told, ``Oops, your program 
has been terminated.'' Please take that back.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    I wanted to know if you could speak a little more about 
humanitarian assistance that we are providing, to what scale it 
is specifically, and then also if it is being able to reach the 
west where the attacks on civilians have been particularly 
harsh.
    Ambassador Jackson. Congresswoman, I don't have a good 
sense of the geographical distribution of the assistance. I can 
tell you that we have provided some assistance in the west and 
northwest. We are attempting to reach the most affected 
populations around the country. We have provided food, we have 
provided access to clean water, we have provided other vital 
supplies. But to get into the details I would need to get back 
to you.
    Ms. Bass. No problem. And you mentioned that soon you were 
going to be coming for $40 million for MISCA, and I am assuming 
that is money that State already had and you wanted 
redistributed. Are you going to be asking for additional 
resources for humanitarian efforts as well?
    Ambassador Jackson. We are looking at all of the Central 
African Republic's needs. At this time, we are focused first 
and foremost on supplying MISCA with the resources that it 
needs. We will continue to provide humanitarian assistance from 
existing programs, and we are looking at how we can support the 
U.N mission and its efforts to assure that we have the best 
possible elections by February 2015.
    Ms. Bass. Okay. And please follow up with me about the 
humanitarian assistance, in particular if there are additional 
resources that are needed, because I would like to be 
supportive of that.
    And I wondered also if you would talk about some of the 
regional dynamics, because I think you said that three-
quarters--well, actually, before getting to that, you talked 
about the Seleka forces increasing from either 2,000 or 3,000 
to 20,000. And so I wanted to know if you would say a little 
more about that, the reason why their ranks have swelled so 
much. I am imagining it is for economic reasons that people 
have joined in, but maybe it is not. Maybe it is ideological or 
religious.
    But I also think you said that three-quarters are from 
Chad. So, one, why the troops have, you know, swelled; and 
then, two, the regional dynamics of them being from Chad.
    Ambassador Jackson. We believe that three-quarters of 
Seleka are from Chad and Sudan.
    Ms. Bass. Oh, okay.
    Ambassador Jackson. The two countries. I can't give you a 
breakdown. I don't think there has been any kind of census. 
But, indeed, our assessment is that the motivation has been 
primarily economic. Seleka has consistently pillaged and sent 
goods that have been pillaged out of the country primarily to 
Chad and Sudan, and that is part of our basis for concluding 
that those are the national origins of many of the fighters.
    But the rebellion grew in size precisely because people saw 
economic opportunity, be it illicit in this case, and they 
profited from it and continue to profit from it. Seleka 
continues to have access to customs revenues and other revenues 
that should rightfully be supporting the national government 
and the people of the Central African Republic.
    Ms. Bass. So what does that say, that the majority of folks 
are not even from the Central African Republic, in terms of the 
support for Seleka within the country?
    Ambassador Jackson. I am not certain that we can say very 
much except that these people are mercenaries. There are a lot 
of questions about how Seleka was financed at its origins, and, 
unfortunately, we have yet to establish good facts to support 
various rumors that we have heard.
    Ms. Bass. Can you speak to some of the rumors?
    Ambassador Jackson. Some of the rumors are that there were 
financiers from Chad and Sudan. But, again, those are 
unfounded.
    Ms. Bass. Right.
    Ambassador Jackson. Or unproven, I should say.
    Ms. Bass. So then, on a governmental level, perhaps you 
could talk about the regional powers. I understand the rogue 
elements, but, you know, are you saying that it is the 
Government of Chad? What about Uganda, Republic of Congo, et 
etcetera?
    Ambassador Jackson. The regional countries have actually 
played a very constructive role. President Deby Itno of Chad 
has been very active working with President Sassou Nguesso of 
the Republic of the Congo, in attempting to broker peace deals 
along the way, starting with the Libreville Accords, and then 
meeting with the African Union in August, and then President 
Sassou-Nguesso chaired the most recent contact group meeting in 
Bangui.
    So the regional leaders have been very positive. Gabon, 
Cameroon, and Equatorial Guinea have also contributed 
peacekeepers to the overall force. And I must say, the police 
from the Republic of the Congo have performed exceptionally 
well according to many reports. And so we appreciate their 
involvement, and that gives us hope that this force can be 
effective if it is expanded through MISCA.
    Ms. Bass. Do you think we could assist if we appointed a 
special envoy? Especially, you know, in the question that 
Chairman Smith asked about if you thought this was genocide or 
pre-genocide, if we appointed a special envoy, would that be 
helpful in terms of preventing it from going in that direction 
toward genocide?
    Ambassador Jackson. Congresswoman, at this time, we do not 
think it would be helpful. We have a senior advisor, as well as 
a desk officer, for Central African Republic. That senior 
advisor is a person who speaks fluent French, who has 
participated in the contract group meetings, has had access to 
very senior officials from the government by telephone on a 
regular basis, is in daily contact with the locally engaged 
staff who continue to function at our Embassy in Bangui, and we 
think he is doing a very good job.
    So at this juncture, we think the staffing is appropriate 
for the situation.
    Ms. Bass. Thank you very much.
    Mr. Smith. Thank you. Let me just conclude, Mr. Ambassador, 
with a few final questions, and perhaps Ms. Bass might have 
another question or two. In his testimony, the Bishop makes I 
think a very important point in suggesting that the 
peacekeepers ought to be put under the United Nations auspices 
and matriculate to a U.N. Chapter VII mandate, and that troops 
then could be obviously garnered from other states, probably 
mostly African states. What is your view on that?
    You mentioned $40 million. That is a sizable sum. But, 
again, if they don't have the mandate, if they don't have the 
kind of rules of engagement that will lead to a disarming of 
the perpetrators of violence, it could be an ill-fated 
peacekeeping force.
    Ambassador Jackson. Mr. Chairman, that is a great question 
and one that we have given a lot of thought to. At this time, 
we do not support the creation of a U.N. peacekeeping mission, 
because we think it would take many months to put in place, and 
we believe that MISCA would provide the immediate security that 
CAR needs first and foremost.
    So we are focusing on the African-led operation. We believe 
that it can establish the security that we are seeking and put 
in place the conditions for elections. And the U.N. 
peacekeeping proposal may be something we want to look at down 
the road, but at this time we do not think it is a viable 
option.
    Mr. Smith. With all respect, could it be looked at 
simultaneously as MISCA is itself being beefed up? I mean, a 
transition can be done on a parallel tract, and that would 
bring more players into it in terms of financial resources. I 
mean, I don't see what the downside would be, especially since 
we have had a mandate problem. On my first trip to Darfur, I 
met with a major name, Ajumbo, who told me while he was there, 
he said, this is after being with him a day and a half, he 
goes, ``I was in Sarajevo during UNPROFOR, and I have the same 
mandate here. We walk around giving the appearance of 
protection, but it is a facade.'' And he was very, very upset 
about that. And of course the rules of engagement for the 
Darfurian peacekeeping were significantly ratcheted up over 
time.
    But initially it was awful, and beyond awful because it 
gave a false sense of protection to the people. And that is 
exactly what happened with UNPROFOR, particularly with 
Srebrenica and all of the other atrocities when peacekeepers 
were deployed and facilitated, perhaps unwittingly, the 
violence.
    And so I am just wondering, you know, what the downside 
would be of a simultaneous tract to try to get a Chapter VII 
mandate.
    Ambassador Jackson. Mr. Chairman, I will take that under 
advisement and confer with my colleagues at the Department. We 
still believe that right now MISCA is our best option.
    Mr. Smith. One final question. The Bishop also points out 
that he is organizing care for over 35,000 people. And I would 
hope--and if you could be in touch with us, you know, either 
right after this hearing or within a few days, as to how well 
our resources are supporting through Caritas or Catholic Relief 
Services, efforts. And that goes for other NGOs as well, but he 
has specific numbers of people in his compound that are 
receiving protection, and, you know, they are in great need.
    I mean, that is, frankly, the genesis of this hearing, the 
meeting that we had with the Bishop several months ago, and it 
has only gotten worse. And so I do hope you will see how we can 
beef up that humanitarian assistance to these NGOs and to these 
church-based groups.
    Ambassador Jackson. Mr. Chairman, we will definitely look 
at that and respond to you as quickly as possible.
    Mr. Smith. I really appreciate that. Thank you so very 
much, Mr. Ambassador, and I really appreciate it. Look forward 
to working with you again going forward.
    Ambassador Jackson. Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    I would like to now welcome our second panel to the witness 
table, beginning with Bishop Nestor Nongo from the Bossangoa 
Diocese. He has been the Bishop there since 2012. This year, he 
is also the Vice President of the Central African Catholic 
Bishops' Conference. He is a member of the Missionaries of 
Africa Society and was on mission in Nigeria from 1998 to 2004.
    He then filled numerous duties in the Diocese of Strasbourg 
in France, including chaplain to the Africa Missions College, 
to the Boy Scouts, and to a state hospital. He was also 
responsible for the Africa Missions Chapel and pastor to the 
Terrance de Mission Parish from 2004 to 2012.
    We will then hear from Mr. Mike Jobbins. Who is a senior 
program manager for the Africa Region at Search for Common 
Ground's Washington headquarters. He supports the design, 
development, and management of SFCG's conflict prevention 
programs in Africa, and has led the startup of its work in the 
Central African Republic.
    Mr. Jobbins has 10 years' experience working on violent 
conflicts in Francophone Africa. Most recently, he was based in 
the DRC and Burundi, working with Search for Common Ground's 
violence prevention, security, and sector reform, and refugee 
reintegration programs. Mike previously worked at the Woodrow 
Wilson International Center for Scholars' Africa Program.
    We will then hear from Mr. Philippe Bolopion from Human 
Rights Watch. He joined Human Rights Watch as U.N. director in 
August 2010. Prior to that, he spent 5 years working with the 
French daily Le Monde as the U.N. correspondent. There he 
covered a wide range of U.N. issues and traveled to such places 
as Darfur, eastern DRC, Sri Lanka, Gaza, and Haiti.
    He has also worked as a journalist covering the United 
Nations for France 24 and Radio France International. Prior to 
working in New York, he was based in Pristina where he reported 
on the end of the Kosovo conflict in 1999 and 2000, so he has a 
great deal of experience.
    Bishop, if you could proceed.

 STATEMENT OF THE MOST REVEREND NESTOR-DESIRE NONGO-AZIAGBIA, 
  ROMAN CATHOLIC BISHOP OF BOSSANGOA, CENTRAL AFRICAN REPUBLIC

    Bishop Nongo-Aziagbia. I am Nestor-Desire Nongo-Aziagbia, 
Bishop from the Diocese of Bossangoa in the Central African 
Republic, and the Vice President of the Central African 
Catholic Bishops' Conference.
    I want to thank you, Chairman Smith and Ranking Member 
Bass, for the opportunity to testify today. I ask that my 
written testimony be entered into the record.
    Mr. Smith. Without objection, so ordered. And I would ask 
all of you, don't be as concise as sometimes the rules of this 
and other committees would suggest. We really want to hear what 
you have to say, so please take whatever time you need.
    Bishop Nongo-Aziagbia. My diocese and its people are at the 
epicenter of an unprecedented crisis that began last March. 
More than 35,000 people have taken shelter in my diocesan 
compound in horrible conditions to escape the deadly violence. 
About 440,000 people are displaced in CAR, and no one knows how 
many people have died.
    We believe that about 25,000 people, Seleka and militiamen, 
are responsible for this violence. Around 90 percent of them 
have been recruited from Chad and Sudan, and most are Muslims. 
They do not speak nor understand our local languages.
    The victims are overwhelmingly Christian. In response to 
the attacks, a small but growing number of Christian Central 
African self-help militia are attacking Muslims. The entire 
population is living in fear, and the country is now in a state 
of complete insecurity.
    I come to urge you to provide immediate assistance to end 
the violence. The United States, working with France, the U.N., 
and the African Union should fund an increase of MISCA troops 
to secure the entire country the size of Texas, and equip the 
force to disarm and demobilize the mercenaries and to return 
them to their home countries and then integrate the Central 
African citizens back into our society.
    This force should be put under a U.N. Chapter VII mandate 
to ensure impartiality and legitimacy, to use force as a last 
result, to save innocent civilian lives. We are grateful for 
the $40 million under discussion by the administration for this 
purpose.
    Second, the United States and its partners should fund 
humanitarian assistance to allow Central Africans to return to 
their villages and to rebuild their lives. Catholic Relief 
Services is working effectively with the church and will be a 
natural partner in these efforts. We are thankful for the $24 
million committed for this purpose. It is a good start, but 
more is needed.
    Third, the United States and its partners should fund the 
transition process through a legitimate democratically elected 
government. We need an independent electoral commission to 
conduct free and fair elections. Assistance should also be 
extended to civil society and faith-based groups, so they can 
protect the civil rights and ensure government leaders serve 
the common good.
    At this difficult time, the church is the only national 
institution that is still operating and serving the needs of 
the victims of violence and destruction.
    In ending, I would like to emphasize two important points 
about the nature of this conflict. First, the March 2013 
overthrow of the government was about gaining access to 
political power. Seleka attacks on Christian communities have 
created a growing sectarian conflict in CAR that never before 
existed. That will make the conflict more intractable.
    Second, our rich natural resources are funding the current 
militias and could attract other armed groups, criminal 
networks, or even terrorist groups looking for a safe place to 
operate, new recruits, and a source of financing for their 
operations. This is a formula for persistent regional 
instability that must be avoided.
    We urge the United States to rally the international 
community in our time of need. This is clearly a moment when 
you can be a modern-day good Samaritan to the Central African 
people who have fallen prey to perpetrators of violence and 
destruction. We hope and pray that the United States will rise 
to this call and help us rebuild a new free and democratic 
Central African Republic.
    Thank you for your kind attention. I welcome any questions 
you might have.
    [The prepared statement of Mr. Nongo-Aziagbia follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Smith. Thank you so very much, Bishop Nongo.
    Mr. Jobbins.

   STATEMENT OF MR. MIKE JOBBINS, SENIOR PROGRAMME MANAGER, 
                AFRICA, SEARCH FOR COMMON GROUND

    Mr. Jobbins. Thank you, Chairman Smith, Ranking Member 
Bass, and members of the committee. I would like to also start 
by thanking Bishop Nongo for the fantastic work that his 
diocese is doing in Bossangoa, as well as for Mr. Bolopion for 
the work that Human Rights Watch is doing in documenting the 
deteriorating situation in the Central African Republic.
    I also ask that my written testimony be entered into the 
record.
    I work for Search for Common Ground, which is one of the 
largest conflict transformation organizations in the world, and 
we have been working in Central African Republic since the end 
of last year, working with Catholic Relief Services to prevent 
violence using media, using community actions in the southeast, 
and increasingly around the rest of the country as we see the 
crisis that we have all noted begin coming out of control.
    My testimony is informed by our work on the ground, but the 
opinions and the analysis are my own.
    I would like to share with you three things that we 
consider critical to understanding the situation in CAR today. 
The first is looking at the dynamics of the violence, and the 
second is looking at the trend lines, and the third considering 
why we think this is a critical time and opportunity to 
realistically change the course of action and change the course 
of the tragic river that we are seeing.
    The first is on the dynamics of violence. The crimes that 
have been committed by the Seleka forces are well-documented. 
Human Rights Watch, Amnesty International, and a great number 
of very courageous Central African media groups, Central 
African civil society groups, have documented these amply.
    They have documented rapes, killings, arbitrary executions, 
reprisals against the previous regime, and hundreds and most 
likely thousands of deaths through those atrocities, both in 
March and then more recently as we see an uptick in fighting 
with anti-balaka groups that you mentioned in your opening 
statement.
    The important thing that we are seeing with Seleka is that 
even though they disbanded in September, they still retain de 
facto control over much of the country. And, in that regard, 
the command and control structures have broken down and they 
are much harder to control and to engage with than in the past.
    It is a group without any clear ideology, any clear 
platform, or anything that unites them except a sense of 
opportunism, a sense of marginalization, and a shared faith. 
Many of them are of the Muslim faith.
    The second part of the violence that we see is that there 
has been a breakdown of law and order that has created a 
vacuum. So the LRA, of course, continues to operate. It has 
been facilitated because many of the operations were suspended 
during the uncertainty of the transition period, and then we 
also see poachers coming down from Sudan, and we see a number 
of upticks in armed bandits. We have all sorts, and not just 
Seleka, but new forms of banditry and lawlessness.
    And, third, that was alluded to by Bishop Nongo and is 
certainly troubling is the rising uptick in intercommunity 
violence. The anti-balaka militias are springing up around the 
country, and we have seen segregation of nearly every 
community. Every village, every city, has been dividing into 
ethnic neighborhoods, into religiously divided neighborhoods.
    As a result, with this armament process, with this 
segregation, with this fear, we see a tinder box in the local 
political dynamics where any incident can create a spillover. 
And so not only have we seen violence in the northwest, which 
has always been a hot bed of opposition to the Seleka movement, 
but we have also seen incidents in Obo, incidents in Zemio, 
where farmer and pastoralist tensions have boiled over into 
intercommunal violence.
    The trend lines in all of this are scary. The ingredients 
for tragedy at a much larger level are there. We saw for the 
first time in mid-October heavy weapons used by both anti-
balaka and Seleka forces, including mortars and ground-to-
ground missiles. We see increasing armament around the country 
and increasing segregation, as well as an economy that is 
devastated, a population that is desperate, and a political 
transition that doesn't seem to be advancing very clearly.
    This is the same sorts of things that we have seen create 
frustration and create tragedies in Syria, in the DRC, and 
elsewhere, and we see those same dynamics at play of 
segregation, fear, and weaponry.
    But yet the situation isn't hopeless. We have heard a lot 
about the upcoming deployment of MISCA, which is certainly a 
promising--could be a very promising development if there is 
sufficient U.S. logistical, financial, and planning support. At 
the same time, we are also hoping to see security before MISCA 
gets deployed to secure humanitarian access in the corridors of 
Bangui.
    You alluded to a comment I made in my statement that there 
have been dozens of attacks on humanitarian vehicles. Those are 
continuing to increase. And as we lose humanitarian space, it 
not only affects us but it also affects the entire community 
that are being served by the humanitarian access.
    On the second point on humanitarian response, it is 
important to underline the operational capacities there--
Catholic Relief Services, Mercy Corps, IRC, IMC. Many of the 
major humanitarian actors are there and have the operational 
capacity to respond, yet funding is short. The U.N.'s combined 
appeal only garnered 42 percent of the amount that they 
requested, and there is a need to ramp up assistance as well as 
the capacity to do so. There is not yet the funding, as far as 
we know.
    The third point on how to accomplish this process, as you 
referenced earlier, is a good one and that is the role that the 
religious community and community-based groups can play. There 
is a risk that before any peacekeepers come the situation will 
be already out of control, be too far past the pale, yet there 
are community leaders who are there now, there are church 
leaders, there is media, there are youth groups, there are 
thousands, hundreds of thousands of Central Africans who are 
deeply upset with what they see going on.
    And groups like the church and others can mobilize a 
response to that in a way that can happen before the 
peacekeepers and prevent some of these dynamics of segregation 
and violence from coming to fruition.
    And, finally, certainly the transition process is a 
critical one. We heard from the colleagues from the State 
Department about the accompaniment of that process, and that is 
something that we would like to see continue, particularly with 
a higher level of engagement from the United States, more 
consistent political engagement.
    Certainly, the nomination or the naming of a special 
advisor is helpful, but at the same time making sure that there 
is an Embassy that reopens in Bangui as soon as it is feasible 
from a safety perspective, in the meantime maintaining contact 
with the transitional authorities, with the civil society, is 
critical, as these decisions are being sorted out, because 
without a clear political future, without understanding what is 
going to happen to the Seleka forces, if there is going to be 
demobilization, what will happen with the electoral process, it 
is very unclear what the future of the political leadership is 
in the country and impossible to find an exit to the crisis in 
that context.
    So those are the four points that we consider priority 
actions for U.S. engagement, and I am open to your questions. 
And thank you again for your time.
    [The prepared statement of Mr. Jobbins follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Thank you very much for your time, for your 
wonderful work on the ground, and for these very specific 
recommendations. Thank you so much.
    I would like to now recognize Mr. Bolopion.

 STATEMENT OF MR. PHILIPPE BOLOPION, UNITED NATIONS DIRECTOR, 
                       HUMAN RIGHTS WATCH

    Mr. Bolopion. Thank you very much, Mr. Chairman. Thank you 
very much, Ranking Member Bass. And I would ask that my 
statement be entered for the record as well.
    I work for Human Rights Watch, which is a human rights 
organization. Three weeks ago I arrived in Bangui. I was 
carrying piles of our latest report there. It is a brutal read. 
It is a report that details abuses committed by the Seleka 
fighters between March and June of this year. For many months 
now, they have killed scores of civilians, women, children. 
They have pillaged, burned entire villages, looted as well, and 
they did this with complete impunity.
    So arriving in Bangui, I knew that the situation was very 
bad, and yet I was not fully prepared for what I found on the 
ground there. We quickly made our way to Bossangoa, where the 
Bishop is from, which is in the northern part of the country. 
And as soon as we arrived there, we saw the Seleka. They are in 
control; they rule the town. And we saw what they looked like. 
To be very clear, it is a bunch of very young men wearing 
random uniforms, flipflops, carrying old weapons, but they are 
the law in town.
    We went to the church, which has now become the center of a 
makeshift displaced people camp. I have seen my share of camps 
in my career. I can tell you this is one of the most horrible I 
have seen. It stinks of human waste. There is smoke everywhere, 
sick people, children. It is a very, very bad camp.
    And the real tragedy is that many of the people I met in 
this camp live just nearby, some only a few hundred yards from 
the church. They were not displaced by a natural catastrophe; 
they were just displaced by fear, because whenever they tried 
to leave the camp and work in their fields, for example, they 
get shot at by the Seleka fighters who control the town.
    As a matter of fact, in front of the church, I met a young 
woman roughly my age, Florence Namngafo. She was carrying an 
infant child there who had a really nasty wound on his arm and 
he was injured by the same Seleka bullet that killed his father 
close to their field and for absolutely no reason. And this 
woman only survived because she played dead for several hours 
while her kid was screaming in pain, unable to assist him.
    Now, if you walk a bit away from the church in Bossangoa, 
you quickly meet the Muslim communities. You have about 4,000 
people. They live around what used to be the school, what used 
to be the court building, in very poor conditions as well. And 
these people were not displaced by the Seleka; they were 
displaced by anti-balaka violence. And, as you have heard, the 
anti-balaka are these militias of mostly Christians.
    They are supposed to be about self-defense, but the story 
we were told by Muslim residents there are very different. It 
appears that in many instances these anti-balaka use the same 
brutal tactics as the Seleka and target civilian Muslims for 
the only reason that they are Muslims.
    So, for example, I talked to a few men there who told me 
that their village was attacked only months ago by anti-balaka. 
At 5 o'clock a.m. in the morning, they come in the village 
where you have also a few Christian people. They go to all the 
Muslim houses, take everybody out, and started saying things 
like, ``You are Muslims. You are Seleka. We are going to kill 
you. We are going to kill all the Muslims.''
    They proceeded to separate what they call the men, which 
really are the boys at 10 years old and up, from the women and 
the other kids. They slit the throat of a young man, 27 years 
old. The other men panicked, started to run in every direction. 
The Seleka men, who were mostly men in civilians with machetes, 
but a few guys in uniforms with AK-47s as well, they started 
shooting at them and they killed four more people, including a 
13-year-old boy.
    The other men made it out to the bush, many of which I 
talked to. And when they came back at night to see what had 
happened, the women and the kids were gone. They could figure 
out from the footsteps in the sand that they had left with the 
anti-balaka, but they don't know what happened to them. They 
think they are probably dead.
    The village was burned to the ground. All their cattle, 
which is their livelihood, was killed. Only the heads of the 
cows were laying on the ground.
    In the same camp, I talked to another man, an older Muslim 
man. His name was Massadou Bichefou, and he had two wives, 11 
kids and grandkids, and the same thing happened to him in early 
September. Anti-balaka came in. He was able to escape and hide 
in the grass, but he saw the anti-balaka come in, take each and 
every of his 11 kids and grandkids, to anti-balaka men with a 
knife who slit the throat of each and every of them one by one.
    So, you know, what we heard when we were there was a bit 
new to us, the sort of new sectarian religious undertone to the 
violence. We did not hear that when we were in the country 
between March and June. And it is extremely worrying in a 
country like the CAR where people have lived well for many 
years. And it is not a country that was about religion to begin 
with, but people with guns on both sides seem to be using 
religious tensions to justify the crimes they are committing 
against defenseless civilians on both sides.
    So what this could do to the whole country, of course, is 
extremely worrying. It is hard to predict. And to get a better 
sense of it, we ventured a bit outside of Bossangoa. We went to 
a small town called Zere, and the Bishop I am sure is familiar 
with this place. There was no one on the road. We drove for 2 
hours without meeting anyone. The few women we saw alongside 
the road were so scared when they saw us--because they thought 
we were the Seleka because we had a 4x4--that they were running 
into the bush, dropping all their belongings, everything they 
had. One of them even dropped a baby on the side of the road. 
It took us half an hour to find the mother to take the baby 
back.
    When we arrived in Zere, it is a very eerie feeling. It is 
a ghost town. The church has been burned. The mosque has been 
destroyed. We counted 300 burned houses there, including all of 
the Muslim houses. It is completely devastated.
    And we spent a bit of time there and eventually some men 
came out of the bush. They were carrying spears and machetes, 
old guns, knives. They told us they were not anti-balaka, and 
they described the Seleka violence. When we asked them about 
the burned Muslim houses, they said they did not know what 
happened. And they told us about the kind of lives they live 
now. They live in the bush, three kilometers out in the bush. 
The kids are dying of malaria. The women are giving birth under 
trees, and they are getting absolutely no aid whatsoever. 
People in Bossangoa have a bit of aid; these people do not.
    So to conclude now, you know, what could the U.S. 
Government do to prevent the country from spiraling further 
into chaos? First, I think the U.S. should support the 
deployment of a U.N. peacekeeping mission. I think it would be 
a mistake to put all your eggs in the MISCA basket, in the 
African force basket. I saw them on the ground. There are too 
few of them. They are ill-equipped and not very professional. 
They provide private security for money in Bangui, in 
Bossangoa. They get pushed around by the Seleka. They sell beer 
and bottled water. Put simply, I think they are not up to the 
task.
    Now, they are the only game in town for now, and it is true 
that the U.N. peacekeeping mission will take some time to 
deploy. But I think, Mr. Chairman, you were right to say that 
preparations for that could start right now with no real 
downside to this.
    And I believe that in places like Zere or Bossangoa a few 
blue helmets, a few professional peacekeepers, would provide 
enough security that people would go back to their homes, 
rebuild, cultivate their fields, and restart their lives.
    Second point, the humanitarian aid, I believe the U.S. 
could provide much more. The needs are staggering, and the 
people, especially living in the bush, are getting absolutely 
nothing and dying of diseases that could be easily treated.
    A third point, I think the U.S. could start sanctioning 
some of the people who are committing the worst abuses there, 
including Seleka leaders. Some of them are starting to get real 
access to a natural resource, to money, and they would care. 
And the U.S. should push the U.N. to do exactly the same thing.
    Right now, there is complete impunity for these crimes. 
Sanctions would not be the perfect solution, but at least it 
would signal that there is a cost for these abuses.
    So thank you very much, Mr. Chairman, and of course I am 
happy to answer any of your questions.
    [The prepared statement of Mr. Bolopion follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Mr. Bolopion, thank you very much for your 
recommendations, your work on the ground as well.
    Because I know she does have to leave, I would like to 
yield to my friend and colleague, Ms. Bass, for questions.
    Ms. Bass. Thank you very much, Mr. Chairman.
    Following up from each of your comments, I wanted to know, 
since each of you have been there recently, do you see U.S. 
assistance on the ground? Do you see evidence of it? And what 
type of assistance do you see? And maybe each of you could 
comment briefly to that.
    Mr. Bolopion. Maybe I will go first. No, I did not see any 
U.S. assistance, though I was not engaged in delivery of any 
humanitarian aid, so I wouldn't take this as a probing sign.
    Mr. Jobbins. From our end, we are supported by USAID and 
Catholic Relief----
    Ms. Bass. You receive funding from----
    Mr. Jobbins. We are supported to respond to the needs of 
communities in the southeast of the country, which is not this 
area that has been most affected as of yet. We understand that 
there are discussions about additional U.S. assistance to a 
number of actors in the country, but I don't know the status of 
those beyond the current programs that we have had since before 
this current crisis.
    Ms. Bass. Have you had assistance to go into other areas? 
Do you have the capacity to do that?
    Mr. Jobbins. Yes, we do. And many of the humanitarian 
organizations on the ground do have the capacity to respond to 
almost every one of these needs. There are health actors, there 
are food security actors, there are peace and conflict 
resolution organizations. So there is the capacity to respond. 
It is, at the moment, of mobilizing resources and ensuring a 
modicum of security to begin operating.
    Ms. Bass. Bishop?
    Bishop Nongo-Aziagbia. The American Embassy in the Central 
African Republic has closed down long time ago. I would say 
there is no American presence as such in the Central African 
Republic, and the American Government made a statement calling 
all its citizens to come back to the States or not to travel to 
the Central African Republic.
    But so far as I know, there is Catholic Relief Services, 
which is present in the Central African Republic working in 
Bangui, in the eastern part of the Central African Republic in 
the region where the LRA are operating.
    In the crisis we are living in Bossangoa since the 8th of 
September, the first humanitarian assistance we received it was 
through CRS.
    Thank you.
    Ms. Bass. So I want to ask you, in general, the panel, a 
question--if you can provide options and suggestions for ways 
in which the U.S. Government could best support civil society 
in the Republic. But then I am not exactly sure to what extent 
civil society is functioning, so maybe you could respond to 
both accounts.
    Bishop Nongo-Aziagbia. To the best of my knowledge, the 
best way of helping the civil society in the Central African 
Republic, it will be through American organizations such as 
CRS. They have a foot on the ground. They know the reality. 
They can help efficiently, monitoring any funds coming from the 
American Government.
    Mr. Jobbins. To our perspective, there is certainly a role 
for civil society and for all sorts of actors in responding to 
the crisis, not just the formal civil society human rights 
groups that have been involved in documenting the abuses and in 
lobbying against them, but also church leaders, media 
organizations.
    We have seen the work that the bishops have been doing with 
the imams in a number of cities to reduce tensions and begin 
establishing relationships, and to break down some of those 
rumors and fears. At the same time, there is a need to take 
that work to scale.
    There are only so many people you can have in a meeting 
room as you sort of talk through these issues. And so what 
happens is the events in Bossangoa, for example, when people 
hear of that elsewhere in the country that creates fear 
throughout the entire country because of the events that are 
happening there. And the good work that is being done isn't 
necessarily getting out.
    So when people turn on their radios, they listen to the 
Radio Centrafrique, they listen to the atrocities that are 
being committed, they listen to news or rumors and fear that 
spread, but there isn't any opportunity for people to carve out 
another solution. And so media can play a key role in promoting 
that, in both managing rumors and also promoting moderate 
voices, promoting non-violent voices, recognizing that 
everyone, every Central African, is deeply upset by what they 
are seeing happen to their country.
    But there is this choice that young people have to make. Do 
you join--you know, if you are young and afraid of your own 
personal safety, do you choose to align yourself with an anti-
balaka group, or align yourself with a different kind of armed 
group? Or do you choose to engage with the people who you are 
fearing from, so that you are developing a way to protect 
yourself as a community?
    And ultimately that is the choice that everyone has to 
make, and yet it is not something that is being discussed, or 
it is not something that is being actively supported. And so 
there is a huge opportunity to support religious groups, but to 
support human rights groups, youth organizations, media 
organizations, to start having that conversation and supporting 
the people who are making that choice, to protect and look out 
for their community in a way that doesn't necessarily lead the 
country further down the road to chaos.
    Ms. Bass. Yes. And people need a third alternative, 
obviously. And I know you are talking about international 
organizations, and maybe you are talking about domestic 
organizations, because I was in terms of, what is the capacity 
on the ground of domestic organizations. And maybe you could 
follow with both questions.
    Mr. Bolopion. Yeah. You know, I would say the number one 
issue right now is security. If you are a human rights 
activist, even in Bangui today, if you are a journalist you 
ought to fear for your life. And so that climate makes it very 
difficult for anyone to operate freely in the country.
    And journalists recently have been interrogated by 
Noureddine Adam, who is the head of intelligence in the 
country. I spoke with the highest-ranking imam in the country, 
Imam Kobine. He told me that only a few weeks ago he received 
death threats from a high-ranking person in the government with 
the rank of minister.
    So as long as you have this kind of climate, and as long as 
you have men with guns doing whatever they please in Bangui and 
in the rest of the country, it will be very hard to allow civil 
society to really flourish.
    Ms. Bass. And when you were describing the religious 
violence, you were describing it on both sides, I believe, 
Christians to Muslims, Muslims to Christians?
    Mr. Bolopion. Absolutely. I think the tragedy right now is 
that you have in the country two armed groups, the Seleka who 
are in power, the anti-balaka, mostly Christian militias, and 
they almost never fight each other, or it is very rare. What 
they do is attack civilians, defenseless civilians, with 
brutality from communities they believe are associated with 
their enemies.
    So the Seleka will attack the Christian population of a 
village. The anti-balaka will retaliate against the Muslim 
population of the same village. The Seleka will come back to 
punish the Christian population for this attack. So both 
groups, as far as we can tell, are using the same brutal and 
bloody tactics.
    Ms. Bass. And I believe that the three of you had a 
difference in terms of whether or not the U.S. should appoint a 
special advisor, special envoy. I wanted to know if you could 
respond to that, and then I just have one more question after 
that, Mr. Chair.
    Mr. Bolopion. Maybe I will go first, then. It is not a 
recommendation we have made so far, but I believe any measure 
that would elevate this issue in U.S. foreign policy and bring 
it higher level attention would be beneficial. The Central 
African Republic for a long time has suffered from being 
ignored. Most people would not be able to place it on a map.
    So anything that can start changing that, given the urgency 
of the situation on the ground, would be positive, I believe.
    Mr. Jobbins. From our end, we do work closely with the 
special advisor, who was here earlier, who is in the State 
Department. Our view from the ground would be as soon as 
possible to reopen the Embassy and to have a full diplomatic 
presence, to engage in these very sensitive questions and to 
monitor, of course, the assistance that hopefully will be 
provided.
    But at the same time, what we are also asking is for 
increased visibility, increased public statements, increased 
awareness from within Central African Republic, that this is an 
issue that the U.S. is looking--is watching, is caring about. 
We have seen several cases where international lobbying, 
international concerns, about crimes being committed, about the 
responsibility of certain Seleka commanders for committing 
crimes, has yielded real change on the ground in terms of, you 
know, people being rescinded from various posts because of 
international support, international recognition.
    And so the more that the U.S. publicly engages, it can only 
have positive results for the people in the Central African 
Republic.
    Ms. Bass. Thank you.
    Bishop Nongo-Aziagbia. I don't believe personally that the 
American Government could make much difference or much change 
in the situation on the ground in the Central African Republic 
from Washington. We need to get people on the ground to live 
the experience the Central African people are going through.
    Also, a delegation from the U.N. security visited 
Bossangoa. They came by plane, spent 6 hours within the city of 
Bossangoa. Prior to their visit, means were taken for their 
safety, for their protection. Troops were sent in from Bangui, 
while the people living in Bossangoa, they don't have such 
security.
    I made that clear to the U.N. assistant in matter of 
security. If you want to have a feel of what the people are 
living, experiencing, don't stay within the city of Bossangoa. 
Get out of that city at a radius of 25 kilometers. Things will 
be different from your own perspective.
    So from this office, from our office in Washington, we will 
be talking, but we won't be feeling what the people are living 
in the Central African Republic.
    Thank you.
    Ms. Bass. And my last question to you, Bishop, the 
Principal Deputy Assistant Secretary--that is a mouthful--
mentioned that there was the potential for elections in 2015. 
And based on everything that we have heard today, how on earth 
could elections be held in 2015? I mean, do you see parties 
formed? Are there candidates that are trying to garner support? 
What is your thoughts on whether or not the nation would be 
ready for national elections in 2015?
    Bishop Nongo-Aziagbia. I would say it is possible that 
elections might be fairly conducted in 2015, if all the 
conditions for security are guaranteed into the country by 
sending in MISCA troops or whichever troops, but with specific 
mandate to bring in peace.
    I would like just to give you a testimony from the call I 
had with my vicar general early this morning. At exactly 3:29 
a.m., I called my vicar general just to have the latest news 
from Bossangoa. The news he gave me was really threatening, 
because the city of Bossangoa, as for now, has been surrounded 
by the Seleka elements, the increased number in that city.
    So you can't travel outside of Bossangoa. Bossangoa is, I 
will say, a big open prison. So on one direction the Seleka 
killed five--they came across a group of five young men, killed 
three, dropped their bodies into a river. Two managed to escape 
and then run to the Catholic Church for their lives. On the 
other direction, they came across the anti-balaka militia 
groups. They fought, there are lots of human loss, of death.
    As they returned back to Bossangoa, they surrounded the 
Catholic mission with the over 35,000 people displaced there, 
threatening to shoot at them. So this night the people in the 
Catholic Church compound didn't sleep. That was the message I 
received.
    I called the Minister of Security and Internal Affairs, 
asking him to react, and the response he gave me was a pathetic 
answer because his life is threatened. He has been accused of 
plotting against Djotodia and his regime, because he is telling 
him the truth. And those surrounding Djotodia don't want the 
change. That is where we are coming to. They came. They want to 
stick to the power, and they will use all means at their 
disposal to stick themselves into power.
    Mr. Smith. Bishop Nongo, let me ask you, so right now, as 
you testify, the people that you are trying to protect are 
under siege, surrounded by people with weapons. What does MISCA 
do? Do they in any way deploy? What is the response? How many 
people are surrounding the compound?
    Bishop Nongo-Aziagbia. Presently, MISCA is not in existence 
because the decision will be taken hopefully in December. We 
have presently the MICOPAX operating in the Central African 
Republic, but MICOPAX is helpless.
    There are, from my perspective, observers of all the abuses 
committed on the population, against the population. They are 
there to see that you are killed in a proper way, and then 
maybe take the news abroad.
    We have a group of about 60 or 80 MICOPAX elements based in 
Bossangoa to protect over 35,000 people displaced at the 
Catholic Church. There is an average of 12 or 15 men posted 
there. There are three who are posted at the school where the 
Muslim displaced people are. It is not enough. We want the 
deployment of a U.N. force in that country to better protect 
the population.
    Mr. Smith. I know, Mr. Jobbins, you in your testimony 
talked about that prior to MISCA's deployment--and of course I 
understand that they are not deployed--that there is a 
heightened sense--I mean, a dangerous situation seems to be 
even more dangerous, if that is possible, because they are not 
there, and yet the bad guys know that they are coming.
    Would all of you agree that a U.N. force, blue helmets, 
with a Chapter VII mandate, is required in this situation? 
Otherwise, we might see a false hope and expectation that MISCA 
can bring about protection. I mean, those were the Bishop's 
comments to my staff and I when we met several months ago.
    You know, if we haven't learned that lesson yet, that you 
have got to have the right force, or else there is a dooming to 
failure. As a matter of fact, I was struck in your testimony, 
Bishop Nongo, when you pointed out that there is a de facto 
occupation occurring in the CAR, a foreign occupation at that. 
People from the outside actually have pretty much invaded your 
country, and I don't think that is as appreciated as it ought 
to be.
    So if you could speak, if you all would, to--I mean, I am 
thinking that what this subcommittee will do, at least I will 
and I am sure I will be joined by other members, would be to 
write to the administration along the lines of the questions 
that I suggested to the Ambassador earlier, that there is 
nothing to preclude simultaneously working to get this, you 
know, under U.N. auspices and also with a much more serious 
mandate. And certainly Chapter VII mandates are the best.
    Mr. Bolopion. If I may comment on that, Mr. Chairman. I 
mean, I think there is no question that right now the African 
troops are the only game in town. They are the only ones on the 
ground, and if they were not there the situation would probably 
be much worse.
    Now, is that enough to face the challenges the country is 
facing? Absolutely not. The Bishop described the numbers of 
troops in Bossangoa. I saw them. I have seen peacekeepers in 
other countries. They patrol. They have armored vehicles. They 
have a sort of aggressive stance, and they are ready to 
confront anyone who is antagonizing civilians.
    This is not the case in Bossangoa. At one point when we 
were leaving the cities for these day trips to see villages 
around, there was a crew of foreign journalists that wanted to 
come with us with an escort from the FOMAC, the African 
peacekeeping mission there. And we didn't have any escort. We 
were allowed to go through the Seleka checkpoints. The BBC were 
authorized, but the FOMAC patrol was stopped by the Seleka, and 
they just went back to their base.
    So they are not ready to confront the bad guys there. And 
so what to do about it? I think they need to be supported right 
now, and I think the $40 million that could be put to that are 
probably a great thing.
    But you need to start running right now for a U.N. 
peacekeeping mission. Yesterday, the U.N. gave to Security 
Council members very good detailed reports giving options for 
how the international community could help with the situation. 
And the options ranged to very minimal support to MISCA all the 
way to a full-blown U.N. peacekeeping mission of the type that 
you have in the Democratic Republic of the Congo, in Liberia, 
in Ivory Coast, for example. These will be blue helmets. They 
would be certainly not the perfect solution, but they would be 
much more professional than what we have right now.
    They would have more vehicles, communications, command. 
They would have a civilian component of the mission that could 
work on justice, elections, security, things like that. So the 
U.N. is ready to do it. There is a good report on the table, 
and I think the U.S. should consider it in a very positive 
light.
    Another offer that the U.N. Secretary-General made is to 
say, ``Look, it is a very urgent situation. Things could go 
really bad. You could give us the authorization to redeploy 
U.N. peacekeepers from neighboring countries to intervene in 
the country if it comes to that.'' I think it is also something 
that should be looked at very carefully.
    Mr. Smith. Excellent point. Before we go to Mr. Jobbins, 
you know, one of the biggest takeaways from Srebrenica--and I 
have been there for reinterment of some 800 bodies when about 
8,000 Muslims were slaughtered in the course of about a week--
was that the peacekeepers, they were all about force 
protection, not civilian protection, and we have seen that 
replicated time and time again.
    And, as you pointed out in that conversation about how the 
peacekeepers were turned away and went back to their barracks, 
I mean, if that doesn't underscore and illustrate, you know, a 
deficiency, I don't know what does. So thank you for that.
    Mr. Jobbins.
    Mr. Jobbins. From our end, we don't have any particular 
insight into whether a U.N. or African Union peacekeeping force 
is the most effective. But our position in evaluating the 
different plans, and certainly the ones that were put forward 
by the U.N. Secretary-General yesterday, the questions that we 
have to ask ourselves is, the speed of deployment, how can we 
get the most troops on the ground fast with the mandate that 
they require?
    Those, as far as we are concerned, are the only criteria. 
And which international administrative body it falls under is 
less important than the speed, the numbers, and the mandate 
that they have, and the degree of mobility.
    What is important to understand is that we have a very 
tragic situation in Bossangoa. We have dozens of other cities 
where there are almost as tense situations, and so the 
peacekeeping force needs to have the mandate and the troop 
strength to be able to cover a very large space the size of 
Texas that is sparsely populated and where, because of the 
climate of fear, conflict and tensions can erupt relatively 
quickly in a number of different places. And so mobility and 
geographical coverage is important.
    Mr. Smith. Are the troops contemplated under MISCA 
adequate?
    Mr. Jobbins. The troops contemplated under MISCA, I believe 
under the latest, it is 3,600 who are authorized, and they are 
looking at potentially going up to 9,000. In terms of the 
numbers, I am not a military planner, but they certainly need 
quite a lot.
    And the only other component that we would add that hasn't 
been mentioned yet by my co-panelists, but I hope they would 
agree with us is also the support to BINUCA, which is the 
political arm, which was also recognized in Security Council 
Resolution 2121, and the need for sustained U.N. political 
engagement on human rights issues, but also if we want to see 
elections, we want to see these things, there needs to already 
be an international political accompaniment as well as the 
security accompaniment.
    Mr. Smith. Bishop.
    Bishop Nongo-Aziagbia. Mr. Mueller, in his report, after 
the visit he made to the Central African Republic, made that 
statement, that the 3,600 men from the MISCA is far below what 
is needed on the ground. So there is a need to increase that 
number to 9,000 to 10,000 men, I would say. And the composition 
of the Council members should be also looked into.
    From the perspective of the Central African people, the 
contribution of Chad, as stated in the crisis in the Central 
African Republic, has not been clear because Chad has been in a 
way instrumentalizing the crisis in the Central African 
Republic for its personal benefit.
    On the economic side, in the northern part of the Central 
African Republic, Chad has drilled its oil. They have two 
wells. One of the two wells is on the Central African Republic 
soil. So you do understand that the continuous crisis in the 
Central African Republic, the insecurity, will help Chad to 
continue exploiting our natural resources without anybody 
looking at it.
    We have this long troubled relationship with Chad as far as 
cattle herders and farmers are concerned. Chad is desert 
country. They need grass for their cattle. And according to 
international law, there is a tract made for the cattle 
herders, but they are not respecting this tract. They take 
their cattle into farmer's field, destroying the crops and 
everything. That has been, for the past years, source of 
tension between farmers from the Central African Republic and 
cattle herders from Chad.
    So those cattle herders come with rifles, guns. They shoot 
at the farmers, burn down their houses, and the creation of the 
anti-balaka groups, it is not just a new event, because the 
anti-balaka groups did form since the '90s to fight the armed 
marauders, and then they are then fighting these cattle herders 
coming from Chad, destroying their crops, their villages, their 
houses.
    Now they are fighting to protect what they call their 
right. So we need to look into that. The international 
community maybe should help the Central African Republic to 
sort things out with Chad.
    Mr. Smith. Bishop, thank you. I will put my remaining 
questions on temporary hold, because we have the privilege of 
being joined by the chairman of the full committee, Congressman 
or Chairman Ed Royce.
    Chairman Smith. Thank you. Thank you very much, Chairman.
    One of the concerns that many of us had with respect to the 
activities of the Janjaweed when they were participating in 
ethnic cleansing, which they still are, in Sudan, was the 
spillover effect that that would have in the region. And what 
we have seen are the same tactics of the Janjaweed. Indeed, 
probably 85 percent, 90 percent of this force, is not 
indigenous to Central African Republic. It is coming in from 
Sudan. It is coming in from Chad.
    And these foreign fighters have learned a particular method 
of operation. And what we see them doing in towns across the 
Central African Republic is committing the same types of 
looting, of rapes, of torture as well here. By the way, and 
their focus on going after the Catholic Church, which at this 
point is probably the only real institution functioning in the 
country, and functioning on the standpoint of not just the 
school systems that they deal with but also in terms of the 
social welfare network, in targeting a country which is 85 
percent Christian and 12 percent Muslim, the other danger here 
is that they are going to ignite, as you are discussing, the 
sectarian conflict.
    And just as this has expanded, you are going to have a 
continued arithmetic increase in the struggles between 
Christians--animus--Muslims, because, as the Bishop has 
explained, one of the consequences of this is if you are taking 
cattle that you have herded and you are turning it over later 
to a local Muslim cattle herder, then the tensions are going to 
be expanded to the ethnic tensions within that local community.
    And the real danger here is that this is a country the size 
of Texas that is engulfed now. But we are seeing this MO, you 
know, deployed across North Africa. And the reason we are 
supportive of action being taken is in order to try to arrest 
this, we met with Samantha Power, our new Ambassador to the 
U.N., had a meeting with her and the committee last week, and 
this was the foremost issue she wanted to talk about, which is 
indicative of how destructive this is going to be in terms of 
the African continent.
    I think the other aspect of this I would like to ask you 
about, and I will just expand this into our ongoing effort 
after 17 years, or whatever it has been, we finally had a 
pretty good operation going against Joseph Kony under 
legislation that we wrote. And that focus was on running Kony 
down, and he was in the southeast area of the Central African 
Republic. And all of that seemingly has been put on hold as we 
deal with the bigger disaster, allowing him, theoretically, to 
regroup, you know, to resupply.
    Again, it has been problematic in the past that the 
Sudanese Government has supplied him. I don't know that they 
would continue to do that. But their tolerance of the 
activities of the Janjaweed, and their encouragement of it, has 
helped put us in this crisis today. So just some observations 
on those two points, if you would, and thank our panelists 
again.
    And, Chairman, I thank you and Karen Bass for your 
engagement in this. And, by the way, Mr. Marino has been very 
involved as well, and I really think it is going to take 
members' engagement here in order to push up, you know, the 
focus on the Central African Republic and on the need to get 
the support there, both in terms of what we do for relief but 
also in terms of MISCA's efforts.
    Go ahead.
    Mr. Jobbins. Thank you, Chairman Royce, and thank you for 
all of the work that the entire committee has been doing to 
bring attention to this issue. On the first question of the 
influx of this movement and of Seleka inflaming wider religious 
tensions, it is certainly a trend that we have seen and one 
that we are very fearful will continue to increase.
    The pattern in several places, including in Bangassou and 
Yaloke, we have seen that when Seleka units or Seleka groups 
felt under attack that they sought to actively rally the local 
Muslim community to their cause. Many of these communities are 
ethnic pulled, many of them are not, from the same backgrounds 
of the Seleka forces.
    But we see them trying to forge these alliances or trying 
to establish a local support base, because many of them come 
from far afield, they are looking to establish roots in the 
country and reaching out and involving Muslim communities to do 
so, which is triggering the back and forth reprisal attacks 
that we have heard of and that Bishop Nongo illustrated so 
well.
    So that is a worrying trend. It is one that may continue as 
the movement continues to fracture. We have seen fighting now 
between Seleka groups. And as this sort of mixed group tries to 
devise, and continues to try and set down roots, we see risks 
of further attempts to mobilize civilians.
    On the question of the fight against the LRA and Joseph 
Kony, it is true that up until this most recent violence that 
there had been a lot of significant progress in reducing the 
operational space and encouraging defections, and that was set 
back by this instability. It seems as though efforts are 
ramping up again, but it is true that there was a moment of 
pause in which the LRA was able to regroup.
    And we are quite afraid that as the dry season sets in, 
there is going to be increasing trade between the remote areas 
that are historically targeted. And so as traders move back and 
forth between these cities that haven't been resupplied, first 
because of the fighting and then because of the rainy season, 
as people have to start getting food, have to start getting 
supplies out to these remote areas, those are new targets and 
new opportunities for the LRA and other armed groups to prey 
upon.
    Chairman Royce. Thank you. I, again, thank the panelists, 
and I yield back. I know Mr. Marino has been waiting, and I 
also want to thank him for allowing me to go out of sequence.
    But thank you, Mr. Chairman.
    Mr. Smith. One of the wonders of this committee, really of 
Congress, is that there are so many people of extraordinary 
talent. Well, Mr. Marino used to be the U.S. Attorney in 
Pennsylvania, so has a wealth of law enforcement knowledge, and 
was a very effective U.S. Attorney. He is a member of our 
subcommittee, and I yield to him such time as he may consume.
    Mr. Marino. Thank you, Chairman.
    Gentlemen, welcome, and I apologize for being a little 
late. I am doing the traditional marathon here today, because 
of three committees simultaneously having hearings.
    But I have a constituent in my district, in the 10th 
District of Pennsylvania. It is the north-central northeast. 
Actually, it is the largest district in the state. I have 15 of 
the 67 countries. So it is a very large geographical area.
    And Jon Cassel has been working in the Central African 
Republic for a number of years with the Christian Broadcasting 
Network. And Jon has--he has an ambivalence concerning Chad, 
fighters from Chad going into the Central African Republic and 
choosing sides.
    What is the U.S. doing to address Chad's role in the 
Central African Republic? And on top of that, what is the 
international community doing as well? So, Mr. Bolopion?
    Mr. Bolopion. Thank you, sir. We hear a lot of things, too, 
about the involvement of Chad in what is happening in the 
Central African Republic. We have not done extensive research 
on that. We do not know who is pulling the strings and who is 
playing what games exactly in the country. Frankly, it is very 
hard to follow because at times alliances are made very 
quickly, as fast as they are being rescinded, so it is a very 
complex situation.
    I would say that Chad will soon join the U.N. Security 
Council. Starting on January 1, they will sit around the table 
there with the U.S., and they will have a major say in 
decisions the U.N. Security Council will take about the 
situation in the Central African Republic, including for the 
deployment of a U.N. peacekeeping mission, if it comes to that.
    So I think your question is extremely relevant, and I 
believe that the presence of Chad around the table will provide 
the U.S. Government with ample opportunities to ask tough 
questions to the Chadian diplomats there.
    Thank you.
    Mr. Marino. I am going to shift gears here a little bit, 
and then if you gentlemen would like to respond to any of the 
questions when I get through these. I only have 5 minutes.
    Thank you, Chairman.
    It has been brought to my attention--and I would like to 
know if you can verify this for me, any one of you could verify 
this for me--the USAID has been reluctant to work with 
religious-based organizations throughout the world, which is 
especially harmful in the Central African Republic.
    As the chairman keenly alluded to, the Catholic Church is 
probably one of the last humanitarian organizations still 
functioning in the Central African Republic. Is that the case? 
Are any of you finding out that USAID is reluctant to work with 
the Catholic Church?
    Bishop, this sounds like this is right in your area.
    Bishop Nongo-Aziagbia. I don't really know the policy 
governing the way the American Government is working, and then 
disbursing its help or assistance, humanitarian assistance, to 
which organizations, I can't really see, because I haven't been 
working with the American Government, neither benefitting from 
any assistance from them.
    But the only thing I know is when the crisis really broke 
up in Bossangoa, the first emergency assistance we received it 
was through CRS, which is a faith-based organization, an 
American faith-based organization. Where do they get their 
money? I guess from the American Government.
    Mr. Marino. Okay. I want to make----
    Mr. Smith. Would the gentleman yield on that?
    Mr. Marino. Yes, please.
    Mr. Smith. In part, but in large part, very often it is 
raised through other sources as well. So I did ask the 
Ambassador when he testified, Ambassador Jackson, if he could 
give us a full accounting as to how much money has been let to 
faith-based organizations. And I pointed out my deep 
disappointment, having just returned from Nigeria, when I 
discovered, really to my shock, that despite having ample 
capability and capacity the church was largely overlooked, and 
just 9 percent of our PEPFAR money and health dollars were 
going to faith-based organizations. And I am talking about 
mostly indigenous, on-the-ground infrastructure and capacity 
that was being overlooked.
    Mr. Marino. And thank you for bringing that point up, 
because Jon, my constituent who spends a lot of time there, you 
know, brought this to my attention. And we need to do more 
work, Chairman, to see that funds are, how can we say it, 
fairly disbursed, because the Catholic organization and my 
mother--I hope she is listening, because I am a Roman Catholic, 
and my mother wanted me to be a priest, and it just didn't work 
out that way. So she would be proud of me right now, I am 
hoping. But we will work hard in that direction.
    Either Mr. Jobbins or Mr. Bolopion, do you have an opinion 
on that that you would like to make?
    Mr. Jobbins. What I can say, we work--we are not a faith-
based organization, but we work very closely with Catholic 
Relief Services in the southeast of the Central African 
Republic, and that is supported by USAID. In terms of how much 
they are supporting in the rest of the country, I am not sure, 
but what I can certainly say is echo the sentiments that you 
have said and that the religious leaders do have a huge 
capacity to respond to the crisis, both religious media, 
religious clerics, and other sort of faith-linked 
organizations, both on the Christian as well as on the Muslim 
side, to respond to the crisis in the CAR.
    Mr. Marino. Okay.
    Mr. Bolopion. We have no expertise in this question.
    Mr. Marino. What do we do, then? What more can we do, aside 
from funding? How do we get the best bang for our buck? And 
what changes, if either--any one of you gentlemen could 
instantly make a change, where would it be, the change, and how 
would you do it? So if you each would respond to that, please.
    Mr. Bolopion. If I may, it may be on how to get the best 
bang for the buck. I am convinced that that would be by 
supporting a U.N. peacekeeping mission. I am convinced that in 
a place like Bossangoa, a few well-equipped, well-trained 
professional U.N. peacekeepers would go a long way.
    We are not in a country where you are facing a real 
military threat. I described the Seleka men in Bossangoa. They 
go around in flipflops. The anti-balaka are often people 
carrying knives and spears. So you are not confronting on 
either side well-organized, well-equipped military groups. A 
few U.N. peacekeepers in Bossangoa and you could have 40,000 
people go back to their houses, go back to their fields, the 
humanitarian crisis would be averted.
    So I think it is the most cost-effective way for the U.S. 
to invest in this crisis.
    Mr. Jobbins. From our end, I think the two things to 
guarantee bang for the buck, the first is that a stitch in time 
saves nine, and that we are seeing--the failure to act today is 
going to lead to a much worse situation tomorrow, both in terms 
of funding and in terms of lives lost.
    We are at a point where there are, in Bossangoa and other 
places, have already been tragedies, but in much of the country 
there have been tensions, there have been signs of danger, 
signs of tragedy, that haven't happened yet. And so now is an 
opportunity to respond quickly to keep that from coming into 
place.
    And the second, of course, is to build on the capacity that 
is in place, there are humanitarian organizations. There is 28 
national/international aid agencies who are working there. 
There are churches; there are networks in place. They can be 
mobilized quickly. And so there is an opportunity to respond 
fairly effectively and quickly.
    And then, in terms of the question of the one thing that 
would change, we would say that alongside the support to an 
international peacekeeping mission is to support community non-
violence actions, supporting churches, supporting media, 
supporting things that can begin shifting this tide, using the 
capacities and the initiatives and the energies that already 
exist among hundreds of organizations across the Central 
African Republic.
    Mr. Marino. Bishop, please.
    Bishop Nongo-Aziagbia. I will just make three small points. 
First, peace--building peace; second, humanitarian assistance; 
and, third, security by supporting MISCA.
    Mr. Marino. Are there individuals--or I am seeing that 
there are individuals, but maybe you have a different twist on 
this, gentlemen, that need to be arrested and criminally 
prosecuted?
    Bishop Nongo-Aziagbia. Well, from experience, and then 
coming across people on the ground, I will say we may produce a 
list of people who have been involved in the human atrocities 
and others. But human rights organizations have done a good job 
on that. I think they might help us.
    Mr. Bolopion. Thank you, Bishop. Yes, absolutely, and large 
numbers. The type of crimes that have been committed in the 
country since March are simply horrendous. Scores of people 
have been killed.
    I described the way armed groups have slit the throats of 
children, so there should be a lot of people right now who 
should be prosecuted for these crimes, all the way up the 
chain, if that chain can be reconstituted. It is not happening 
for a very simple reason; it is that the men in power, which in 
some cases condone the abuses, are also controlling now the 
justice system, which is completely broken down.
    So the only way you will bring back some measure of 
accountability could be through the International Criminal 
Court, which is closely observing the situation in the country 
and could decide at some point to start investigations. There 
could be, through the U.N. Security Council, for example, the 
creation of a Commission of Inquiry, which could start 
documenting these abuses and start looking at how we can hold 
these people accountable.
    And as I said earlier, one thing the U.S. Government can do 
right now is when they have sufficient information, and the 
information is out there against some of these individuals who 
are responsible for these crimes, to sanction them and ask the 
U.N. to do the very same thing.
    If some of these people in power right now cannot travel 
abroad anymore, cannot have bank accounts in other countries, 
cannot engage in business, for example, profiting from the 
natural resources they have access to right now, that will be a 
game-changer for them. So I think it is a very simple, very 
little cost measure that the U.S. could take that would really 
help.
    Mr. Marino. And if the chairman would just allow me one 
other question. I know that the United Nations has the 
wherewithal, it has the money, it has the people there that 
could do just exactly what you described, but do you think the 
U.N. actually has the desire to do this in Central African 
Republic?
    Mr. Bolopion. If we talk about the U.N. Secretary-General, 
the answer is yes. The U.N. Secretary-General, Ban Ki-moon, 
gave a report to the U.N. Security Council yesterday. This was 
the result of a mission that was on the ground for 2 weeks. The 
Bishop described talking to some members of the mission. I did 
as well. They were there to evaluate what the best options 
were.
    When you read their report, I believe it is pretty clear 
that they think the best option would be a U.N. peacekeeping 
mission that would take over the African Union peacekeeping 
mission as quickly as possible. They know how to do this. They 
have done it in many countries. It is not always a perfect 
solution. We all have in mind very well-known failures of blue 
helmets in the past.
    But personally, coming back from the country, having seen 
on the ground what the African Union mission looks like, I have 
very little confidence that they will be able to face the 
challenges ahead, including the possibility of further mass 
atrocities in the country.
    So are they ready to do it? Yes, they are. All they need is 
a green light from the U.N. Security Council, and the U.S. 
could make that happen tomorrow.
    Mr. Marino. Thanks.
    Bishop Nongo-Aziagbia. I will say everybody knows exactly 
what to do. A lot of reports have been produced about it. But 
up to now, I don't know why but no action is being taken. I 
think it is time you stop talking and then you start acting.
    Mr. Marino. I agree. Gentlemen, thank you very much. Thank 
you for your service.
    And, Chairman, thank you for allowing me the extra time.
    Mr. Smith. Thank you. And, Mr. Marino, I would ask for your 
help on this as well. You know, it is my understanding that the 
Catholic Relief Services' work in northeast CAR is completely 
and totally privately funded, only the work in the southeast 
with regards to the LRA is not, and then it is only in part 
supported by USAID.
    And one of the things we asked Ambassador Jackson earlier, 
I asked him, I think we need to do a better job in getting the 
money where its utilization can immediately be felt by people 
who are suffering hunger and medical needs.
    I mean, Bishop Nongo, you are caring for 35,00 people. How 
are you doing it? I am sure the camps would be much nicer if 
you had the capability and the wherewithal, and USAID has that. 
And so part of the reason for this hearing as well was to try 
to say, ``Get the money to those individual groups that can 
really have an impact on the ground.'' And certainly the faith 
community has that capacity, and it is not being utilized.
    Mr. Jobbins, would you want to----
    Mr. Jobbins. Just to send that spirit that there is a whole 
number of groups that can use money and can use it well to both 
respond to the emerging humanitarian needs, and also to prevent 
this cycle of violence, because there are people who are 
unhappy, there are people who can do things about it. It is 
about making sure that they have a voice and have an 
opportunity to start mobilizing alternatives to this kind of 
violence that we are seeing.
    Mr. Smith. In your statement, Mr. Jobbins, your final 
bottom line was this is a critical moment for the U.S. 
Government to engage proactively and decisively to protect 
civilians and prevent current threats from evolving into large 
scale atrocities in Central African Republic. Are we? I mean, 
are we really seizing the moment, or is it still something that 
awaits action?
    Mr. Jobbins. We have been very pleased to see the attention 
that is beginning to be paid to this situation. It is 
something, of course, we wished that there had been more 
attention earlier, but we are very pleased through efforts like 
this hearing, through some of the meetings that are going on at 
State and USAID to begin bringing a response. But the speed 
that is needed is something that we can't underestimate. It is 
something that we need to move. The situation gets worse every 
single day, and we need to move quickly.
    Mr. Smith. You said, Mr. Jobbins, in your testimony there 
are persistent rumors, though no confirmation, of attempts by 
Seleka groups to form alliances with groups from North Africa 
and the Middle East. Could you elaborate that? Are we talking 
about al-Qaeda, Boko Haram, al Shabaab? Of course, that is, in 
Somalia. And where does Seleka get its arms from? Have any of 
those arms been traced to Libya and the fall of Ghadafi?
    Mr. Jobbins. From my end, I can say what I said in my 
testimony, which is that there are persistent rumors. There are 
rumors of all sorts, including the rumors of weapons from Libya 
and other places abroad. What I need to emphasize is, of 
course, they are rumors, but they are widespread and it has 
been since the beginning of Seleka that there have been these 
kinds of rumors. And every group that you have named has been 
rumored to be attached to Seleka one way or another.
    What we can say is that as Seleka's internal coherency 
weakens, as we see them feeling under military threat, and 
reaching out and mobilizing local, trying to mobilize local 
divisions to build a support base in-country, it is fair to 
imagine that they are trying to use this narrative of religious 
conflict, or that they would have this opportunity to use this 
narrative of religious conflict to mobilize support outside of 
the country as well.
    Mr. Smith. Bishop.
    Bishop Nongo-Aziagbia. I would like to add to this answer. 
The borders with Chad and Sudan are a porous border. Anybody 
can come in and out of the country as he or she wishes, when it 
wishes, and there is no control. From some information, there 
are arms manufacturers in Sudan, AK arms in Sudan, and then 
people easily get arms in that area.
    So it is possible that these militias, either from Chad or 
either from Sudan, get their arms from Sudan into the Central 
African Republic. The fact is, the Central African Army didn't 
fight the Seleka. They kept on running. As running, most of the 
arms are located to them for the protection of the civilians. 
They left it behind, and then the Seleka, as they moved, they 
picked whatever was left behind by the Army.
    And we have some arms bought by the oustered President, 
kept in his own village of Benzambe, in various places in 
Bangui. Those arms were not used, and then the Seleka easily 
got access to those arms. That is what they are using.
    Mr. Bolopion. And I would just say we don't have any 
conclusive evidence on the issues you mention. I would say, as 
the U.S. weighs its options in the region, that many of the 
groups you mention are often attracted to countries that are 
lawless, and where they can operate freely, and the Central 
African Republic is definitely becoming one of these countries.
    Mr. Smith. Mr. Bolopion, you made I think a very 
constructive recommendation that we single out individuals and 
make it harder for them to travel, to, you know, isolate them. 
I would note parenthetically in 2004 I authored the Belarus 
Democracy Act, which, among its many other provisions, created 
a visa ban on Lukashenko and many of his henchmen.
    And to our pleasant surprise, my pleasant surprise, the 
Europeans followed suit, and we pretty much have the same list 
of people who commit human rights atrocities who then can't 
travel to Europe or to the United States.
    With regards to CAR, have our Government or the Europeans' 
or anyone done anything yet along these lines? Would it be hard 
to compile a list of individuals that should be so sanctioned? 
And it wouldn't just be visa bans. It would be, you know, 
trying to do, in a parallel way, what we do with foreign 
terrorist organizations. We go after their sources of funding, 
make it harder for them to do business, if you will. Your 
thoughts on that?
    Mr. Bolopion. Mr. Chairman, I think it is really something 
to look into in more detail. I don't believe any of these 
individuals have been put under sanction in any country right 
now. These sanctions are most effective when they are taken at 
the level of the U.N. Security Council, because certainly these 
individuals not only cannot travel or have bank accounts in the 
U.S., but they cannot travel or have bank accounts in any other 
countries.
    And so some of the Seleka leaders have family or businesses 
in Chad, in Sudan, in Gulf countries, in places like that. So 
they have interests in foreign places. The reason why, talking 
to diplomats, I believe these type of sanctions have not been 
adopted yet is the lack of information that governments regret 
when it comes to the situation.
    I believe that there is a lot of information out there now. 
We certainly have allowed--many of the individuals committing 
crimes are not even hiding very well. So if there is the 
political will to go after them, I think it can easily be done, 
and I believe that to be effective it should be done at the 
U.S. level, as well as the U.N. level. And the U.S. mission in 
New York can show leadership on this issue if it decides to.
    Mr. Smith. Yes, Mr. Jobbins.
    Mr. Jobbins. I think the only thing that I would add to 
that--I think that is something we all agree with--is also just 
to recognize the dissuasive power, not just of accountability 
but of communicating about accountability and making sure--just 
the notion that there is an attention to the commission of war 
crimes and other kinds of mechanisms, has a positive effect in 
dissuading future events.
    And we have seen individual Seleka commanders be 
transferred because of outrage at some of the crimes that they 
have committed, and so we--you know, some messaging that 
accompanies that is something that would be very welcome.
    Mr. Smith. You know, because the NSA is probably reading my 
emails and yours, it does seem to be a matter of prioritization 
and taking that initiative to do it. We will follow up on that, 
and I thank you for that recommendation.
    You know, you also made a recommendation that the ICC look 
into what is going on in the CAR. I recently chaired a hearing 
and wrote an op-ed for The Washington Post on Syria and the 
fact, in my opinion, that a regional or ad hoc tribunal might 
be far superior because of the focus, the buy-in from the local 
individuals.
    And we had David Crane, the Chief Prosecutor for the 
Special Court for Sierra Leone, testify, and he is part of an 
accountability project vis-a-vis Syria right now, gathering 
information about atrocities, who, what, where, why--we know 
the why--and when. And, you know, the hope is that something 
like that can be set up.
    Parenthetically, my concern with the ICC has been, and it 
certainly has a role to play, but they have had 18 indictments 
and one conviction, somebody from the DR Congo, who has been 
convicted and they are looking at three individuals with Boko 
Haram right now.
    So your thoughts perhaps on a justice mechanism that might 
be different in the ICC. You know, they could do it, but I 
think they will go for one or two people, if that, and leave 
out the dozens that might also be, you know, held to account 
for their atrocities.
    Mr. Bolopion. Thank you, Mr. Chairman. This was not exactly 
a recommendation. The ICC has already declared that they were 
actively looking into the situation, so they are aware of it. 
We believe that they will be the appropriate place to judge 
people who are most responsible for the horrendous crimes that 
have been created there.
    Now, you are exactly right that this will not be enough. 
They will not go after the lower-level commanders on the ground 
who are involved in some of these crimes. The types of 
mechanisms that we will require will have to be part of the 
discussion, and, frankly, could be part of what a U.N. 
peacekeeping mission would look like.
    We have to keep in mind that whenever a U.N. peacekeeping 
mission deploys in the country it doesn't come with just 
military; it comes with a lot of civilians who are doing 
exactly this type of work and are trained to help people 
rebuild the justice system, try to make sure that minimum 
standards are in place. When people are arrested and charged, 
they can look into truth and reconciliation commissions, 
alongside this type of thing.
    So we are just at the very beginning, but these are 
important questions that will need to be addressed.
    Mr. Smith. Bishop. Thank you.
    Bishop Nongo-Aziagbia. In the advocacy mission, that the 
Central African civil society made to U.N. in the month of 
September, here in Washington in the month of September, one of 
the points we stressed, it was to fight against impunity. There 
are what my colleague used to say--the big fish can be looked 
after by the international penal court, and then they have to 
set up at the national level the judicial systems, which might 
take into consideration all those who have committed any abuses 
of any kind.
    The BINUCA has received a political mandate with particular 
regard to justice, impunity, abuses. I hope they will get the 
necessary funding and the adequate personnel to look into this 
matter.
    Mr. Smith. Mr. Jobbins, you mentioned on point three of 
your four points, humanitarian response. There is a tremendous 
humanitarian need, and you point out that, as I noted before, 
the human and operational capacity exists in-country to begin 
meeting those needs, but there are significant funding 
shortfalls in order to respond.
    Perhaps all three of you--and, Bishop, if you wouldn't mind 
providing us as detailed as possible an assessment of what 
those needs are, with as close to a price tag as you can put 
together, so we can advocate for--this subcommittee certainly 
has jurisdiction, and I can tell you that both myself and the 
ranking member want to ensure that--and the rest of the 
committee that those needs are being met.
    I think it is appalling that 35,000 people that you take 
care of, and we are not helping--we are giving verbal support, 
but we are not giving tangible support. So in as precise a 
fashion as you can, to detail the needs, and the unmet need 
especially, so we can, as best we can, admonish and maybe even 
legislate, particularly through the appropriations process, 
sufficient funding to meet that need.
    So if you could make that available to us, all three of 
you, I would say it would be very, very helpful.
    Yes.
    Mr. Bolopion. Thank you, Mr. Chairman. I would say it is 
hard to put a price tag on it. I would say the new number one 
is for security. Humanitarian aid will not be delivered in the 
kind of villages we went to unless the roads are secured, for 
example. The civil society will not flourish. Many things will 
not happen as long as we have a few men with guns running 
entire areas.
    Now, this of course has a price, and a U.N. peacekeeping 
mission has a price. I believe it would be a good investment. 
The solution of supporting an African Union mission would be 
probably a bit less costly in the short term, but I believe 
that in the longer term, if the country descends into chaos, it 
will have been a mistake to make that decision based on cost 
only.
    On the humanitarian situation, all I can tell you is that 
according to the U.N. this is one of the worst humanitarian 
crises, and it is also one of the most underfunded. So the 
needs are huge, and governments are not contributing enough.
    Finally, the Bishop pointed to something very important. 
BINUCA, the U.N. office there where I went to in Bangui, they 
were given with Resolution 2121 a very strong mandate, 
including to do human rights monitoring, exactly the type of 
things we do, but we are not there all the time, we go to a new 
few places.
    The abuses that I described are horrendous, but we see only 
a very small window into what is really happening in the full 
country. The U.N. should have human rights monitors deployed 
throughout. They have a mandate to do that but not the 
resources yet.
    Mr. Smith. Thank you.
    Mr. Jobbins. From my end, I can--there are some numbers and 
some estimations that have been done by the U.N. Office for the 
Coordination of Humanitarian Affairs that brought together the 
different NGOs who are working and can give a full scientific 
estimate.
    But from all of my conversations with our peers in the 
humanitarian community around town, our sense is that by far 
the medical supplies, food assistance, shelter, and support for 
IDPs, displaced people, are the three or four sorts of 
emergency life-saving assistance that are needed right away, 
and that there are many expert groups around town. And so I 
would defer to their assistance in compiling those numbers. I 
can send it along to you later.
    And alongside that, of course, on the humanitarian side is 
the need to prevent violence and prevent further violence and 
integrate that into all of the work that we do.
    Bishop Nongo-Aziagbia. The list might be long, very long, 
because presently most of the villages have been burned down. 
So the displaced people need to start new lives, build new 
houses, get furniture, the basic elements they need to start 
their lives. Their crops have been completely destroyed, so 
they have to start fresh. Where to get the crops, the seeds, 
that is another question. It will need some funding.
    On health care, on education, the administration has been 
completely destroyed, so if we want the country to start, we 
have to redeploy the administration to rebuild the country. So 
we will deploy the civil servants, the judiciary members, and 
all that. We have to look at the offices. In that regard, the 
government will need some financial help.
    The most important above all is the security, because you 
can't do any of that without security, and we can work with CRS 
to get you details of assistance. We are already working on 
needs.
    Mr. Smith. Thank you. And I look forward to working with 
all of you to get those detailed responses.
    Without objection, a fact sheet by the United States 
Commission on International Religious Freedom entitled 
``Increasing Sectarianism and Violence in the Central African 
Republic'' will be made a part of the record. And a letter from 
Chairman Royce to Secretary of State John Kerry dated November 
7 will also be made a part of the record.
    And I do have one final question, and that would be, you 
know, you point out, Bishop, that another important factor in 
this conflict is the presence of gold and diamonds, and the CAR 
Seleka militia groups are already in control of gold and 
diamond mining areas.
    And I am wondering, because that can be a source of 
unbelievably tremendous subsidization for these terrible 
activities, is the international community responding to that? 
Has another blood diamonds situation emerged? And how effective 
are any of us being in focusing on that?
    As we have done in the past, and there are mechanisms in 
place now, are they being utilized to ensure that none of those 
diamonds and none of that gold that is extracted by these 
killers, these terrorists, gets into New York, London, or 
anywhere else in the world?
    Mr. Bolopion. If I may on that, Mr. Chairman, we have not 
done any research on the exploitation of natural resources in 
the country. I think it is a great thing to look at.
    Just a little anecdote from my trip there, I met with the 
security minister when I was in Bangui, Pastor Josue Binoua, 
who used to be a minister under the government of former 
President Bozize. He is in charge of the military and the 
police. He has 6,000 men under his control. By the way, only 
110 weapons he told me.
    But while I was with him, he was receiving a lot of phone 
calls on his cell phones trying to manage different crises. One 
of them he explained to me was that some, what he called 
Chinese businessmen, had just been arrested by his men at the 
airport trying to smuggle, out of the country, large quantities 
of gold.
    And they were caught, arrested, and he was receiving phone 
calls from another minister from the Seleka, from the 
government, whom he did not name, but whom he said was 
threatening him, telling him, ``You need to release these guys, 
they are working with me. If you don't release them, you will 
find me on your way.'' So I think that tells you a lot about 
these dynamics.
    Mr. Smith. Can I ask you on that, is there any evidence, as 
we saw with Bashir in Khartoum, of Chinese complicity with the 
terrorists?
    Mr. Bolopion. I have absolutely no basis to say that the 
Chinese Government----
    Mr. Smith. Okay. Is anybody looking, do you know?
    Mr. Bolopion [continuing]. Would be involved in this in any 
way.
    Bishop Nongo-Aziagbia. To the best of my knowledge, I would 
say that the Chinese presence in the Central African Republic 
is not on side of any rebel groups. They are there for their 
own business. And what has brought them to the Central African 
Republic, it is the mineral resources the country is having.
    And just to give another anecdote like the first speaker 
has just given, it is at the airport, the police officer in 
charge came across someone who was probably carrying a huge 
amount of money in a European currency. It was far beyond what 
is allowed. And then he just made that clear to the passenger, 
he won't allow him to go across with his police formality.
    That man picked his phone, talked to someone who happened 
to be the President. He passed on the phone to that police 
officer who refused to take it. A few minutes later on, the 
President presented himself at the airport, and then blaming 
that police officer who was just doing his job.
    So that is where we are standing. The politicians are using 
all the means just to enrich themselves at the expense of the 
country.
    Mr. Smith. Thank you. Is there anything else any of you 
would like to add before we conclude today's hearing?
    Mr. Bolopion. Just to thank you, Mr. Chairman, for 
organizing this discussion. It is really heartening to hear 
this country being discussed in the U.S. Congress.
    Mr. Smith. Thank you.
    Mr. Jobbins. I would just add my voice as well to thank you 
all for your attention.
    Bishop Nongo-Aziagbia. Thank you for this opportunity.
    Mr. Smith. I thank you for your extraordinary leadership, 
the insights you provided us, and look forward to working with 
you going forward.
    The hearing is adjourned.
    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
